TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Fiscal Year 2014 Statutory Audit of
                      Compliance With Legal Guidelines
                     Restricting the Use of Records of Tax
                              Enforcement Results



                                     September 19, 2014

                             Reference Number: 2014-30-055




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY AUDIT                   WHAT TIGTA FOUND
OF COMPLIANCE WITH LEGAL
                                                   There were some instances of noncompliance
GUIDELINES RESTRICTING THE USE OF                  with RRA 98 Section 1204 requirements. TIGTA
RECORDS OF TAX ENFORCEMENT                         identified instances of noncompliance with each
RESULTS                                            subsection of the law:
                                                      Section 1204(a) – 13 potential violations.
Highlights                                            Section 1204(b) – 55 instances of
                                                       documentation noncompliance.
Final Report issued on
September 19, 2014                                    Section 1204(c) – three instances of
                                                       noncompliance.
Highlights of Reference Number: 2014-30-055
                                                   TIGTA also identified 11 IRS policy violations.
to the Internal Revenue Service Deputy
                                                   In these 11 instances, managers did not reject
Commissioner for Operations Support.
                                                   employee self-assessments containing ROTER
IMPACT ON TAXPAYERS                                information.

The IRS Restructuring and Reform Act of 1998       In addition, TIGTA determined that changes to a
(RRA 98) requires the IRS to ensure that           human resources computer system resulted in
managers do not evaluate enforcement               466 Section 1204 managers not being listed on
employees using any record of tax enforcement      the Fiscal Year 2013 Section 1204 Manager
results (ROTER) or base employee successes         Listing, as well as eight employees missing the
on meeting ROTER goals or quotas. Use of           mandatory ROTER training in Fiscal Year 2013.
ROTERs may create the misperception that
                                                   WHAT TIGTA RECOMMENDED
safeguarding taxpayer rights is secondary to IRS
enforcement results.                               TIGTA made seven recommendations, including
                                                   that Section 1204 noncompliance and IRS policy
WHY TIGTA DID THE AUDIT                            violations identified in this report be discussed
TIGTA is required under Internal Revenue Code      with responsible managers and employees.
Section 7803(d)(1)(2000) to annually evaluate      TIGTA also recommended that IRS
whether the IRS complies with restrictions on      management disseminate guidance regarding
the use of enforcement statistics to evaluate      Section 1204 compliance and that they continue
employees as set forth in RRA 98 Section 1204.     to review human resources data to ensure the
Our review determined whether the IRS              appropriate classification of Section 1204
complied with:                                     managers and employees. The IRS agreed with
                                                   all the recommendations and has taken or plans
   Section 1204(a), which prohibits the IRS       to take corrective actions.
    from using any ROTER to evaluate
    employees or to impose or suggest              However, the IRS did not agree with four of the
    production quotas or goals.                    13 Section 1204(a) potential violations, as well
                                                   as 11 of the 55 instances of Section 1204(b)
   Section 1204(b), which requires that           documentation noncompliance.
    employees be evaluated using the fair and
    equitable treatment of taxpayers as a
    performance standard.
   Section 1204(c), which requires each
    appropriate supervisor to self-certify
    quarterly whether ROTERs were used in a
    prohibitive manner.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            September 19, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2014 Statutory Audit of Compliance
                             With Legal Guidelines Restricting the Use of Records of Tax
                             Enforcement Results (Audit # 201430005)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with restrictions on the use of enforcement statistics to evaluate employees as set
 forth in IRS Restructuring and Reform Act of 1998 (RRA 98) Section (§) 1204.1
 The Treasury Inspector General for Tax Administration is required under Internal Revenue Code
 § 7803(d)(1)(2000) to annually evaluate the IRS’s compliance with the provisions of RRA 98
 § 1204. The RRA 98 requires the IRS to ensure that managers do not evaluate enforcement
 employees2 using any record of tax enforcement results (ROTER) or base employee successes on
 meeting goals or quotas for ROTERs. This review is included in our Fiscal Year 2014 Annual
 Audit Plan and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations.
 If you have any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General
 for Audit (Compliance and Enforcement Operations).



 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   An enforcement (Section 1204) employee is an employee or any manager of an employee who exercises judgment
 in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or who
 provides direction/guidance for RRA 98 Section 1204 program activities.
                        Fiscal Year 2014 Statutory Audit of Compliance With Legal
                       Guidelines Restricting the Use of Records of Tax Enforcement
                                                  Results




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          There Were Some Instances of Noncompliance With
          Section 1204 of the Restructuring and Reform Act of 1998 ........................ Page 4
                    Recommendations 1 and 2: .............................................. Page 9

                    Recommendation 3:........................................................ Page 10

                    Recommendation 4:........................................................ Page 11

          HR Connect Limitations Caused Some Managers to Be Missing
          From the Section 1204 Manager Listing and Some Employees
          to Miss Mandatory Training ......................................................................... Page 11
                    Recommendations 5 and 6: .............................................. Page 13

          Managers and Employees Could Benefit From a Better
          Understanding of Record of Tax Enforcement Results Statistics ................. Page 14
                    Recommendation 7:........................................................ Page 14

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Previous Audit Reports Related to This
          Statutory Review ........................................................................................... Page 22
          Appendix V – Management’s Response to the Draft Report ....................... Page 24
          Fiscal Year 2014 Statutory Audit of Compliance With Legal
         Guidelines Restricting the Use of Records of Tax Enforcement
                                    Results




                        Abbreviations

IRS               Internal Revenue Service
ROTER             Record of Tax Enforcement Results
RRA 98            Restructuring and Reform Act of 1998
TIGTA             Treasury Inspector General for Tax Administration
                    Fiscal Year 2014 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results




                                           Background

On July 22, 1998, the President signed the Internal Revenue Service (IRS) Restructuring and
Reform Act of 1998 (RRA 98) into law.1 RRA 98 Section (§) 1204 restricts the use of
enforcement statistics. Specifically, RRA 98 § 1204(a) restricts the use of enforcement statistics
and prohibits the IRS from using any record of tax enforcement results (ROTER) to evaluate
employees or to impose or suggest production quotas or goals.
The IRS defines ROTERs as data, statistics, compilations of
information, or other numerical or quantitative recording of the
tax enforcement results reached in one or more cases.                        RRA 98 § 1204 prohibits
Examples of ROTERs include the amount of dollars collected                     the IRS from using
                                                                              ROTERs, production
or assessed, the number of fraud referrals made, and the                       goals, or quotas to
number of seizures conducted. A ROTER does not include                        evaluate employees.
evaluating an individual case to determine if an employee
exercised appropriate judgment in pursuing enforcement of the
tax laws.
RRA 98 § 1204(b) requires employees to be evaluated using the fair and equitable treatment of
taxpayers as a performance standard. The IRS refers to this standard as the retention standard.
The retention standard requires employees to administer the tax laws fairly and equitably; protect
all taxpayers’ rights; and treat each taxpayer ethically with honesty, integrity, and respect. This
provision of the law was enacted to provide assurance that employee performance is focused on
providing quality service to taxpayers instead of achieving enforcement results.
RRA 98 § 1204(c) requires each appropriate supervisor to perform a quarterly self-certification.
In the self-certification, the appropriate supervisor attests to whether ROTERs, production
quotas, or goals were used in a prohibited manner. The IRS defines an appropriate supervisor as
the highest ranking executive in a distinct organizational unit who supervises directly or
indirectly one or more Section 1204 enforcement employees.2 Current IRS procedures require
each level of management, beginning with first-line managers of Section 1204 employees, to
self-certify that they have not used ROTERs in a manner prohibited by RRA 98 § 1204(a). The
appropriate supervisor then prepares a consolidated office certification covering the entire
organizational unit.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  An enforcement (Section1204) employee is an employee or any first-line manager of an employee who exercises
judgment in recommending or determining whether or how the IRS should pursue enforcement of the tax laws or
who provides direction/guidance for Section 1204 program activities.
                                                                                                       Page 1
                      Fiscal Year 2014 Statutory Audit of Compliance With Legal
                     Guidelines Restricting the Use of Records of Tax Enforcement
                                                Results


IRS functional offices and operating divisions, including the Office of Appeals; Criminal
Investigation; the Large Business and International Division; the Small Business/Self-Employed
Division; the Office of the National Taxpayer Advocate; the Tax Exempt and Government
Entities Division; and the Wage and Investment Division, are responsible for implementing the
Section 1204 Program within their respective organization. Section 1204 Program Managers and
Program Coordinators in each business organization are available to provide guidance to
managers regarding Section 1204 issues, including the self-certification process.
As of September 30, 2013, there were 4,428 Section 1204 managers on the HR Connect3
Manager Listing provided by the IRS. Section 1204 managers have either supervised a
Section 1204 employee or provided guidance or direction for Section 1204 activities. Figure 1
shows how Section 1204 managers are dispersed across the various business organizations
within the IRS.
                          Figure 1: Number of Section 1204 Managers
                      by Business Organization (as of September 30, 2013)




       Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of data from the IRS’s HR
       Connect Section 1204 Manager Listing as of September 30, 2013.




3
    HR Connect is a human resources system, owned and operated by the U.S. Department of the Treasury.
                                                                                                         Page 2
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


Internal Revenue Code § 7803(d)(1)(2000) requires TIGTA to determine annually whether the
IRS is in compliance with restrictions on the use of enforcement statistics under RRA 98 § 1204.
TIGTA has previously performed 15 annual reviews to meet this requirement. Appendix IV lists
the prior audit reports.
This review was performed with information obtained from the IRS Headquarters; the Office of
the Chief Financial Officer; the Office of the Chief, Appeals; the Office of the Chief, Criminal
Investigation; the Office of the National Taxpayer Advocate; the Large Business and
International Division; and the Tax Exempt and Government Entities Division in
Washington, D.C.; the Small Business/Self-Employed Division in New Carrollton, Maryland;
and the Wage and Investment Division in Atlanta, Georgia, during the period November 2013
through May 2014. On-site reviews were also performed at the IRS field offices in
Atlanta, Georgia (which included Chamblee, Georgia); Chicago, Illinois (which included
Schiller Park, Illinois); St. Louis, Missouri (which included Town and Country, Missouri);
Dallas, Texas (which included Fort Worth, Texas); and Richmond, Virginia.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                          Page 3
                        Fiscal Year 2014 Statutory Audit of Compliance With Legal
                       Guidelines Restricting the Use of Records of Tax Enforcement
                                                  Results




                                         Results of Review

There Were Some Instances of Noncompliance With Section 1204 of
the Restructuring and Reform Act of 1998
The IRS is generally ensuring that its managers do not use ROTERs and/or production goals or
quotas to evaluate employees. However, the IRS was not in full compliance with RRA 98
§ 1204 during Fiscal Year 2013 and some IRS business units need to be more diligent. The
following issues were identified:
          Section 1204(a) – 13 potential violations in which seven IRS managers used ROTERs
           to evaluate employees and/or suggest production quotas or goals.
          Section 1204(b) – 55 instances of documentation noncompliance in which 21 IRS
           managers did not maintain proper documentation that showed they evaluated their
           employees using the fair and equitable treatment of taxpayers as a performance standard.
          Section 1204(c) – three instances of noncompliance in which an IRS manager did not
           certify in writing to the IRS Commissioner or provide documentation whether ROTERs
           and/or production quotas or goals were used in a prohibited manner.
To evaluate the IRS’s compliance with Section 1204 provisions, we selected a judgmental
sample4 of 35 first-line managers and 105 employees at five sites. The sites selected had at least
six business organizations with Section 1204 first-line managers. We selected seven managers
along with three of the managers’ employees at each site and reviewed their performance
evaluation documentation. In addition, we reviewed performance documentation for five
second-line managers, one from each site. As a result, 145 employees were selected to
determine the IRS’s compliance with RRA 98 § 1204 provisions.
The IRS was not in full compliance with the use of ROTER procedures
In Fiscal Year 2013, the IRS did not achieve full compliance with RRA 98 § 1204(a). We found
13 potential ROTER violations in employee or manager performance-related documents,
operational reviews, or group meeting minutes obtained from Criminal Investigation, and the
Small Business/Self-Employed and Tax Exempt and Government Entities Divisions.
Specifically, the ROTERs were found in:




4
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                                Page 4
                    Fiscal Year 2014 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results


       Six of 143 annual appraisals reviewed.5
       Three of 125 mid-year appraisals reviewed.6
       Two of 139 group meeting minutes reviewed.7
       Two of 21 operational reviews reviewed.8
To evaluate the IRS’s compliance with RRA 98 § 1204(a), we reviewed Fiscal Year 2013
performance-related documents, including available mid-year and annual performance reviews,
employee self-assessments, workload reviews, case reviews, and award documentation for the
145 employees and managers selected, as well as meeting minutes and operational reviews. We
reviewed these documents to determine whether ROTERs were used when evaluating the
employees’ performance and/or to impose or suggest quotas or goals for such employees.
Based on the results of our review, IRS managers are, in most cases, not using ROTERs and/or
production quotas or goals to evaluate employees. However, to ensure the fair and equitable
treatment of taxpayers, some IRS business units need to be more diligent to ensure that ROTERs
are not used to evaluate employees and/or suggest production quotas or goals. Use of ROTERs
may create the misperception that safeguarding taxpayer rights is secondary to IRS enforcement
results. After discussions with management from the three business units, they agreed to discuss
the audit results with the managers and remind them of the guidelines.
In addition, we identified that 11 of the 53 self-assessments prepared by IRS employees9 from
Criminal Investigation, the Small Business/Self-Employed and Tax Exempt and Government
Entities Divisions, and the Office of the Taxpayer Advocate contained ROTERs. For seven
ROTERs identified in the employees’ self-assessments, their manager also used the ROTERs in
the employees’ annual appraisals.10
We did not consider the remaining four instances to be potential RRA 98 § 1204(a) violations
because the ROTERs from the employees’ self-assessments were not used in the employees’
annual appraisals. However, according to the Internal Revenue Manual,11 it is IRS policy that
bargaining unit and non-bargaining unit employees should not use ROTERs in their
self-assessments. If a self-assessment is submitted with a ROTER, it is incumbent upon the

5
  For two of the 145 requested annual appraisals, two Forms 6850-BU, Bargaining Unit Performance Appraisal and
Recognition Election, were not available for review.
6
  For 20 of the 145 requested mid-year appraisals, the responsible managers did not conduct mid-year evaluations of
these employees, which resulted in no mid-year appraisal for us to review.
7
  Of the 35 first-line managers sampled, 11 managers did not provide any group meeting minutes. Of the
24 remaining managers, the number of group meeting minutes per manager varied from one to 37.
8
  Of the 35 first-line managers sampled, 14 managers did not provide any documentation of an operational review.
9
  For 92 of the 145 annual self-assessments requested, the employee or manager did not complete one.
10
   The seven ROTERs identified in the employees’ self-assessments and also used in the employees’ annual
appraisals were included as part of the 13 Section 1204(a) violations.
11
   Internal Revenue Manual 1.5.2.6.2(3) (May 10, 2012).
                                                                                                           Page 5
                       Fiscal Year 2014 Statutory Audit of Compliance With Legal
                      Guidelines Restricting the Use of Records of Tax Enforcement
                                                 Results


manager to return it to the employee for removal of the ROTER.12 In these four cases, the
managers did not follow proper procedures by returning the self-assessments to the employees.
As such, the employees may be unaware of the IRS’s policy that prohibits the use of ROTERs.
Documentation that IRS managers are meeting the requirements of the retention
standard needs improvement
To evaluate the IRS’s compliance with RRA 98 § 1204(b), we requested the appropriate Fiscal
Year 2013 retention standard documents applicable to the 145 selected employees/managers.
The IRS did not achieve full compliance with the retention standard as related to RRA 98
§ 1204(b) in Fiscal Year 2013 for the Office of Appeals; Criminal Investigation; the Large
Business and International, Small Business/Self-Employed, Tax Exempt and Government
Entities, and Wage and Investment Divisions; and the Office of the Taxpayer Advocate.
Specifically, for the 105 employees we determined that:
          24 Employee Personnel Files were missing the Form 6774, Receipt of Critical Job
           Elements and Fair and Equitable Treatment of Taxpayers Retention Standard.
          11 Employee Personnel Files included the Form 6774; however, the form was signed at
           or after the end of the review period.
          Four Employee Personnel Files included the Form 6774. However, the
           acknowledgement (receipt of the Critical Job Elements, including the Fair and Equitable
           Treatment of Taxpayers Retention Standard) section within the form was not
           appropriately signed or dated by all parties.
          Three Employee Personnel Files included the Form 6850-BU; however, the Certification
           of Rating section was not appropriately signed and/or dated by all parties.
          Two Employee Personnel Files were missing the Form 6850-BU.
While for the 40 managers, we found that:
          Six managers’ Employee Personnel Files included the Form 12450-A, Manager
           Performance Agreement, or the Form 12450-B, Management Official Performance
           Agreement; however, the final Summary Evaluation Rating was not appropriately signed
           and/or dated by all parties.
          Five managers’ Employee Personnel Files included the Form 12450-A or the
           Form 12450-B; however, the acknowledgment (receipt of the Critical Job Elements,
           including the Fair and Equitable Treatment of Taxpayers Retention Standard) section
           within the form was not appropriately signed by all parties.



12
     Internal Revenue Manual 1.5.2.6.2(4) (May 10, 2012).
                                                                                             Page 6
                   Fiscal Year 2014 Statutory Audit of Compliance With Legal
                  Guidelines Restricting the Use of Records of Tax Enforcement
                                             Results


RRA 98 § 1204(b) requires employees to be evaluated using the fair and equitable treatment of
taxpayers as a performance standard. The standard applies to all executives, managers, and
employees.
Compliance with RRA 98 § 1204(b) is twofold, the receipt and acknowledgment of the retention
standard and the annual performance rating related to the retention standard. At the beginning of
each performance period, managers must provide the appropriate receipt of the retention
standard form to their employees.13 The manager must sign and date the appropriate form
indicating the sharing of the retention standard with his or her employee and, in turn, the
employee must acknowledge receipt of the retention standard by signing and dating the form. At
the end of the performance period, the employee must be evaluated on the retention standard
using the appropriate appraisal form.14 The Internal Revenue Manual15 states that RRA 98
§ 1204(b) noncompliance occurs when:
        Documentation (either acknowledgment or rating) is not contained in the Employee
         Personnel File and/or does not exist for the fiscal year of audit.
        Documentation (either acknowledgment or rating) does not contain all signatures and
         dates (employee, manager, and next-level manager).
        The retention standard rating is unchecked in the annual performance document.
Further, the Internal Revenue Manual16 also states that both the receipt and acknowledgment of
the retention standard and the performance ratings should be filed in the Employee Personnel
File and retained for three years.
When we discussed the issues of RRA 98 § 1204(b) noncompliance with the IRS first-line
managers, they noted that some employees were missing or late signing the Form 6774 because
the manager had not completed, signed, and provided this form until the end of or after the
review period. While timeliness is not specifically addressed in Section 1204(b), the language of
the law implies that employees need to be informed or reminded of the retention standard prior to
carrying out work on taxpayers’ accounts to ensure the fair and equitable treatment of taxpayers.
Other instances of noncompliance were caused by the manager failing to properly complete the
Form 6774, retain performance documentation, or improperly recertifying prior year
performance appraisals. In addition, some annual performance evaluation forms lacked the
required signature(s) or date(s) on the retained paper copies due to a glitch in the electronic


13
   The appropriate documents for the receipt of the retention standard are Form 6774, Form 12450-A,
Form 12450-B, Form 12450-D, Management/Program Analyst Performance Agreement, or Form TD F 35-07, SES
Performance Management System Executive Performance Agreement.
14
   The appropriate appraisal forms are Form 6850-BU, Form 6850-NBU, Non-Bargaining Unit Performance
Appraisal, Form 12450-A, Form 12450-B, Form 12450-D, or Form TDF 35-07.
15
   Internal Revenue Manual 1.5.3.6.4(1) (June 6, 2012).
16
   Internal Revenue Manual 1.5.3.6(10) (June 6, 2012).
                                                                                               Page 7
                       Fiscal Year 2014 Statutory Audit of Compliance With Legal
                      Guidelines Restricting the Use of Records of Tax Enforcement
                                                 Results


approval system in HR Connect that resulted in electronic signatures not being transferred to the
printed copies retained in the Employee Personnel Files. IRS management has stated that this
glitch has since been resolved.
The IRS uses the discussion and acknowledgement of the retention standard and subsequent
performance evaluations to ensure that all Section 1204 employees meet the provisions of the
standard and provide fair and equitable treatment to taxpayers. If managers are not adequately
documenting these discussions with their employees, it is difficult to determine whether
employees were aware of and/or actually received information on the retention standard. If
managers fail to properly share the retention standard information with their employees, it can
affect their employees’ interactions with taxpayers, as well as their understanding of the
importance of safeguarding taxpayer rights.
First-line managers are completing their quarterly self-certifications
With the exception of three quarterly self-certifications from Criminal Investigation and the Tax
Exempt and Government Entities Division, the IRS complied with RRA 98 § 1204(c). To
evaluate the IRS’s compliance with Section 1204(c), we requested Fiscal Year 2013 first and
third quarter self-certifications for 35 first-line managers. RRA 98 § 1204(c) requires
Section 1204 supervisors to quarterly certify in writing to the IRS Commissioner whether
ROTERs and/or production quotas or goals were used in a prohibited manner. Therefore,
managers who evaluate Section 1204 employees are required to certify each quarter in writing
that they did not:
          Use ROTERs to evaluate employees and/or impose or suggest production quotas or goals
           for employees in any performance evaluations, including appraisals, awards, or
           promotion justifications, written or reviewed by the manager.
          Verbally communicate to employees that ROTERs affected their evaluations.
          Verbally or in writing use ROTERs to impose or suggest production quotas or goals for
           employees or for work unit activities (e.g., through program guidance or business and
           program reviews).
Per the Internal Revenue Manual,17 the business organization and function Section 1204 Program
Managers and their respective Section 1204 Program Coordinators should monitor the quarterly
self-certification process throughout their organizations/functions.
For the three quarterly self-certifications, we found two quarterly self-certifications were dated
before the last day of the quarter and one was missing. For the two who signed early, one
manager explained the document was misdated while the other manager explained that they
signed the document early before going on leave for the remainder of the quarter. Regarding the
missing self-certification, IRS management indicated that they could not locate the document

17
     Internal Revenue Manual 1.5.3.7(10) (June 6, 2012).
                                                                                           Page 8
                       Fiscal Year 2014 Statutory Audit of Compliance With Legal
                      Guidelines Restricting the Use of Records of Tax Enforcement
                                                 Results


because the manager has retired. Per the Internal Revenue Manual,18 the self-certification must
include the entire quarter, so it must not be signed and dated before the last day of the quarter. If
the early signing of a self-certification is identified during a second-line manager’s review, it
should be returned to the manager for correction. The Internal Revenue Manual19 also states that
managers must retain signed copies of completed self-certifications for audit and review
purposes.
Through the quarterly self-certification process, managers are reminded of their responsibilities
under RRA 98 § 1204 to not evaluate their employees on the basis of ROTERs and/or production
quotas or goals. The quarterly self-certification process helps to ensure that managers are aware
of the IRS’s commitment to administer the tax laws fairly and to protect the rights of taxpayers.
Recommendations
Recommendation 1: The Chief, Criminal Investigation, and the Commissioners for the Small
Business/Self-Employed and Tax Exempt and Government Entities Divisions should ensure that
the potential RRA 98 § 1204(a) violations identified in this report are discussed with the
responsible managers to ensure that managers understand the guidelines related to the use of
ROTERs.
           Management’s Response: The IRS agreed with this recommendation, with the
           exception of four specific cases with which IRS Counsel disagreed. The Chief Financial
           Officer confirmed discussions were held with the responsible managers who had
           Section 1204(a) violations identified in this report, which also included reviewing the
           guidelines on the use of ROTERs with these managers.
           Office of Audit Comment: We are concerned with the IRS’s conclusions related to
           the four cases noted above. Two of the four cases contained references to increasing civil
           fraud referrals that could be construed as suggesting goals or quotas. These references
           also convey the impression that the employee is being evaluated on his/her ability to
           increase the number of those referrals. The remaining two cases contained references to
           the number of subpoenas. Subpoenas, like search warrants, are enforcement tools used to
           produce evidence. These are not pertinent to an employee’s performance evaluation and
           in our opinion inappropriately suggest or give the perception of an enforcement
           production goal or quota.
Recommendation 2: The Chief, Criminal Investigation; the Commissioners for the Small
Business/Self-Employed and Tax Exempt and Government Entities Divisions; and the National
Taxpayer Advocate should ensure that noncompliance identified in this report relating to the
prohibition on including ROTERs in employee self-assessments is discussed with the responsible


18
     Internal Revenue Manual 1.5.3.7.7(1)c (June 6, 2012).
19
     Internal Revenue Manual 1.5.3.7.7(2) (June 6, 2012).
                                                                                              Page 9
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


employees and their managers so that they understand the IRS’s policy that bargaining unit and
non-bargaining unit employees should not use ROTERs in their self-assessments.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer confirmed that the Section 1204 instances of noncompliance, with the
       exception of the four specific cases in which IRS Counsel disagreed, were discussed with
       the responsible employees and managers. These discussions emphasized the IRS’s policy
       that bargaining and non-bargaining employees should not use ROTERs in their
       self-assessments.
       Office of Audit Comment: We are concerned about the four specific cases with
       which IRS Counsel disagreed. These four cases were also identified as ROTER
       violations. The employees’ self-assessments were used by their managers in the
       employees’ mid-year and annual appraisals, which resulted in potential Section 1204(a)
       violations. If these instances of potential Section 1204(a) violations are not discussed
       with the responsible employees and their managers, they could continue to occur.
Recommendation 3: The Chief, Appeals; the Chief, Criminal Investigation; the
Commissioners for the Large Business and International, Small Business/Self-Employed, Tax
Exempt and Government Entities, and Wage and Investment Divisions; and the National
Taxpayer Advocate should ensure that the RRA 98 §§ 1204(b) and (c) noncompliance identified
in this report are discussed with the responsible managers to ensure that they understand
retention standard and quarterly self-certification requirements.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer confirmed that the IRS policy on RRA 98 §§ 1204(b) and (c)
       noncompliance regarding the retention standard and quarterly self-certification
       requirements identified in this report were discussed with the responsible managers with
       the exception of the findings in the audit report related to the timeliness of sharing the
       retention standard.
       Office of Audit Comment: IRS management disagreed with 11 instances of 1204(b)
       noncompliance identified in the report. In these instances, the performance standard was
       not shared at the beginning of the performance period as specified in Internal Revenue
       Manual 6.430. IRS management stated that timeliness of acknowledgment (sharing) and
       evaluation (rating) for the performance standard is not a Section 1204 requirement. As
       such, IRS management believes that the retention standard acknowledgments and
       evaluation documents signed 30 days after the end of the performance period should not
       count as Section 1204(b) instances of noncompliance for self-certification reporting.
       RRA 98 § 1204 requires the IRS to use the fair and equitable treatment of taxpayers by
       employees as one of the standards for evaluating employee performance. Any
       Form 6774 signed at the end of or after the end of the review period was deemed an
       instance of Section 1204(b) noncompliance for the purposes of this audit. If employees

                                                                                          Page 10
                  Fiscal Year 2014 Statutory Audit of Compliance With Legal
                 Guidelines Restricting the Use of Records of Tax Enforcement
                                            Results


       are not informed of the fair and equitable treatment of taxpayers’ performance
       requirement at the beginning of their performance appraisal period, we believe that it
       does not meet this requirement of the law.
Recommendation 4: The Deputy Commissioner for Operations Support should develop and
issue guidance to all Section 1204 designated staff that retention standard and receipt of critical
job element documentation must be completed at the beginning of each performance period and
that all performance-related material be retained for three years.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer is in the process of updating policy in Internal Revenue Manual 1.5.3,
       Manager’s Self-Certification and the Independent Review Process, as well as updating
       the Mandatory Section 1204 training material, which will now be administered annually.
       The Internal Revenue Manual 1.5.3 update will include Internal Revenue Manual 6.430
       guidance regarding retention standard receipt/acknowledgment, ratings, and National
       Treasury Employees Union Section 1204 related guidance to clarify that the retention
       standard and receipt of critical job element documentation should be completed at the
       beginning of each performance period and that all performance related materials be
       retained for three years.
HR Connect Limitations Caused Some Managers to Be Missing From
the Section 1204 Manager Listing and Some Employees to Miss
Mandatory Training
Beginning January 2013, all Section 1204 managers were required to use a new HR Connect
indicator to designate their employees and themselves as Section 1204 employees. Managers
were to validate the accuracy of this indicator at the end of each quarter. The HR Connect
indicator was set up to:
      Manage the Section 1204 population more efficiently. 
      Reduce managerial burden in the Section 1204 self-certification process. 
      Improve the accuracy of reporting, which also helps support the annual TIGTA audit and
       independent reviews done by the Office of the Chief Financial Officer. 
In addition, the IRS began using the HR Connect Section 1204 indicator to identify employees
who were required to attend The Mandatory Briefing for Section 1204 Employees and Managers
training. The Office of the Chief Financial Officer took a proactive approach in developing this
mandatory Section 1204 training that is required to be taken every two years.
However, we determined that the conversion to an HR Connect indicator has impacted the
accuracy of the Fiscal Year 2013 Section 1204 Manager Listing created by the Office of the
Chief Financial Officer, as well as the assignment of the mandatory ROTERs training.
Specifically, we determined that:

                                                                                            Page 11
                    Fiscal Year 2014 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results


        466 Section 1204 managers were missing from the Fiscal Year 2013 Section 1204
         Manager Listing.
        Eight of the 145 employees in our sample did not complete the Fiscal Year 2013
         mandatory Section 1204 training within the fiscal year.
The Section 1204 Manager Listing did not capture all Section 1204 management
personnel
The Section 1204 Manager Listing is used to identify managers who are required to comply with
RRA 98 § 1204. However, we identified that several Section 1204 managers were missing from
the Fiscal Year 2013 Section 1204 Manager Listing that was provided to us by the IRS. When
we compared the Fiscal Year 2013 list to the Fiscal Year 2012 list obtained during last year’s
review, we initially found that 1,373 managers were missing. We then used the IRS’s Discovery
Directory20 to determine the current employment status for each of the 1,373 managers and
whether they may have been in a Section 1204 manager position during Fiscal Year 2013. While
many of these managers were either no longer employed by the IRS or no longer supervised
Section 1204 employees, we identified 466 Section 1204 managers who should have been on the
Fiscal Year 2013 list but were not.
Management in the Office of the Chief Financial Officer informed us that there were formatting
problems with the Fiscal Year 2013 Manager Listing since it was the first year of use. For
example, the HR Connect Section 1204 indicator report provides all Section 1204 managers and
employees for various organizations levels, by date range, contains over 40,000 employee
records which requires significant and complex sorting. The Office of the Chief Financial
Officer stated that they will analyze the sort functionality for the HR Connect Section 1204
indicator report so that they can provide a listing that accurately captures all Section 1204
managers in the future. The IRS’s compliance with RRA 98 § 1204 is reliant on accurate
identification of Section 1204 managers. In addition, accurate identification of Section 1204
managers is critical for the annual TIGTA audit, as well as the annual reviews conducted by the
Office of the Chief Financial Officer. As a result, managers and/or employees in violation or
noncompliant with RRA 98 § 1204 could potentially be overlooked.
Some employees did not complete the mandatory Section 1204 training
The new Section 1204 training became available to employees in the IRS’s Enterprise Learning
Management System21 on July 15, 2013. The IRS assigned the training to all IRS staff
designated on HR Connect as Section 1204 employees. All Section 1204 personnel were to
complete the training class by the end of Fiscal Year 2013.

20
   The Discovery Directory is a computer system available to IRS personnel that provides information on IRS
employees including their name, job title, job location, and management level.
21
   The Enterprise Learning Management System is an IRS automated training system. It allows the employee and
manager to be directly engaged in planning, communicating, and coordinating training and development activities
online.
                                                                                                        Page 12
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


We reviewed training records for the 105 employees, 35 first-line managers, and five second-line
managers selected in our sample to determine whether the new training was completed by the
end of Fiscal Year 2013. We identified eight employees who had not completed the training by
the end of Fiscal Year 2013.
Through discussions with IRS management, we determined that some employees and managers
may have missed the training because some managers failed to designate themselves and/or their
employees as Section 1204 staff within HR Connect. As a result, the mandatory Section 1204
training was not assigned to these employees’ Enterprise Learning Management System learning
plan. A lapse in training could have a potentially negative effect on taxpayer rights if IRS
personnel lack a clear understanding of how they should and should not use enforcement
statistics.
Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 5: Include a separate indicator on the HR Connect report to distinguish a
Section 1204 manager from a Section 1204 employee.
       Management’s Response: The IRS agreed with this recommendation. In June 2014,
       the Chief Financial Officer downloaded the HR Connect report to verify for TIGTA that
       the appropriate columns, especially those indicating Section 1204 employees and
       managers, were available. The Chief Financial Officer will ensure that these indicators
       for Section 1204 managers and employees are provided for all future TIGTA audits to
       accurately differentiate the Section 1204 population.
Recommendation 6: Issue guidance for managers to review their employees’ HR Connect
profiles as part of their quarterly self-certification process to ensure that all Section 1204
employees are appropriately identified.
       Management’s Response: The IRS agreed with this recommendation. The Chief
       Financial Officer is updating Internal Revenue Manual 1.5.3, Manager’s
       Self-Certification and the Independent Review Process, to instruct Section 1204
       managers to review and update employees’ HR Connect profiles as part of the quarterly
       certification process. Guidance is currently being provided to the Section 1204 program
       managers as part of the quarterly certification process until the Internal Revenue Manual
       updates are published.




                                                                                         Page 13
                     Fiscal Year 2014 Statutory Audit of Compliance With Legal
                    Guidelines Restricting the Use of Records of Tax Enforcement
                                               Results


Managers and Employees Could Benefit From a Better Understanding
of Record of Tax Enforcement Results Statistics
We interviewed a judgmental sample22 of 20 Section 1204 employees and 40 Section 1204
managers23 to determine their understanding of what a ROTER is and whether employees
understood the retention standard.24 We found that the majority of employees understood the
retention standard. However, we determined that:
        While all 40 managers claimed to have a clear understanding of ROTERS, 11 could not
         accurately provide an example of a ROTER statistic and six provided both accurate and
         inaccurate examples of ROTER statistics.
        While many employees claimed some degree of understanding of ROTERs, six could not
         accurately provide an example of a ROTER statistic, three provided both accurate and
         inaccurate examples of ROTER statistics, and two claimed no understanding of ROTER
         statistics.
The IRS handles so many production-related statistics that it is understandable that managers and
employees could become confused about which statistics are considered acceptable and which
are considered ROTERS. Both the Internal Revenue Manual and the biennial training briefing
define and provide examples of the outcome-neutral nature of the acceptable quantity measures
which include, but are not limited to, the number of cases started and closed, community
outreach efforts completed, time applied per case, direct examination or investigation time, or
indirect time. The training also aims to help managers understand how the statistics can be used
appropriately to evaluate performance or establish performance goals and objectives, as well as
describes the management self-certification process.
A clear understanding of ROTERs is critical for managers to ensure that they are not violating
RRA 98 § 1204(a), are able to accurately document their own compliance through
self-certification, and can assist their employees’ understanding of the requirements of the law.
While the Internal Revenue Manual and required training provide good examples of ROTERs, it
appears that additional reminders on the definition and use of ROTERs would help managers
fully evaluate their employees using acceptable quantity measures while also helping the IRS
ensure that it is compliant with RRA 98 § 1204.
Recommendation
Recommendation 7: The Deputy Commissioner for Operations Support should require
Section 1204 managers and employees to take the mandatory training annually, instead of
biennially.

22
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
23
   The 40 managers consist of the 35 first-line and five second-line managers from our initial sample.
24
   We asked the retention standard question only to employees. We did not ask this question of the managers.
                                                                                                             Page 14
         Fiscal Year 2014 Statutory Audit of Compliance With Legal
        Guidelines Restricting the Use of Records of Tax Enforcement
                                   Results


Management’s Response: The IRS agreed with this recommendation. The Chief
Financial Officer will update the existing Section 1204 mandatory briefing and
coordinate efforts to provide the training annually beginning in Fiscal Year 2015.




                                                                             Page 15
                     Fiscal Year 2014 Statutory Audit of Compliance With Legal
                    Guidelines Restricting the Use of Records of Tax Enforcement
                                               Results


                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with restrictions
on the use of enforcement statistics to evaluate employees as set forth in RRA 98 § 1204.1 To
accomplish the objective, we:
I.       Determined whether the IRS complied with the provisions of RRA 98 §§ 1204(a) and (b)
         when evaluating Section 1204 employees’ performance.
         A. Selected a judgmental sample2 of enforcement employees/managers for review.
             1. Judgmentally selected Atlanta, Georgia; Chamblee, Georgia; Chicago, Illinois;
                Schiller Park, Illinois; St. Louis, Missouri; Town and Country, Missouri;
                Dallas, Texas; Fort Worth, Texas; and Richmond, Virginia, as the audit sites and
                obtained a list of Section 1204 managers by operating division/function from the
                national Section 1204 Program Manager. We eliminated cities recently reviewed
                for ROTERs either by TIGTA or the IRS’s internal review teams. Based on the
                above, we also took into consideration personnel and travel resources to select
                locations that provided an adequate mix of managers from all IRS business
                units/functions. We determined the distribution of the employees to be sampled
                in accordance with the sampling plan. The site visits were completed from
                December 2013 through February 2014.
             2. Identified the 4,428 population of potential first-line managers for each operating
                division/function by obtaining the Section 1204 Manager Listing and researching
                the Discovery Directory.
             3. Judgmentally selected 35 first-line managers from the population identified in
                Step I.A.2. If a selected manager was unavailable during the scheduled visit, a
                substitution was made. We judgmentally selected three employees from each
                manager to review their performance evaluation documents.
         B. Obtained and reviewed the performance evaluation documents (i.e., mid-year, annual
            performance reviews, award documents) for each selected employee and first-line
            manager. In addition, we reviewed self-assessments, case reviews, and workload
            reviews for the selected employees, as well as group meeting minutes and also
            operational reviews for the managers.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                             Page 16
                Fiscal Year 2014 Statutory Audit of Compliance With Legal
               Guidelines Restricting the Use of Records of Tax Enforcement
                                          Results


         1. Contacted the selected first-line managers to obtain performance evaluation
            documentation, case reviews, and workload reviews for the three employees
            assigned to them. When a selected manager was unavailable during the scheduled
            visit, we made a substitution or had the manager assign a designee to provide the
            requested files.
         2. Reviewed the employee performance evaluation documentation, case reviews,
            and workload reviews to determine whether ROTERs, production goals, or quotas
            were inappropriately used in the evaluation process and whether employees were
            evaluated appropriately on the fair and equitable treatment of taxpayers. We also
            verified whether the Form 6774, Receipt of Critical Job Elements and Fair and
            Equitable Treatment of Taxpayers Retention Standard, was signed and in the
            Employee Personnel File for the rating period under review.
      C. Interviewed the employee’s manager and determined the potential cause when a
         potential exception case was identified.
      D. Requested and reviewed the training records for the 105 employees and 35 managers
         selected for review.
      E. Discussed the identified exceptions with the national Section 1204 Program
         Coordinator and the appropriate operating division/function program manager for
         agreement to the facts and to identify the causes for the potential violations.
      F. Selected a judgmental sample of five second-line managers from those who oversee
         the managers selected in our judgmental sample of 35 in Step I.A.3. We reviewed
         performance evaluation documentation (i.e., mid-year, annual performance reviews,
         award documents) for the first-line managers under their control to identify any
         inappropriate use of ROTERs.
      G. Verified that Section 1204 Managers were correctly classified by matching the Fiscal
         Year 2013 Section 1204 Manager Listing to Fiscal Year 2012 Section 1204 Manager
         Listing obtained during our Fiscal Year 2012 review to identify any managerial
         changes between the two years. For any managers who were removed from the
         current list, we used the Discovery Directory to determine their current
         employment/management designation.
II.   Determined if the sampled first-line managers complied with RRA 98 § 1204(c) by
      certifying whether or not ROTERs were used in a manner prohibited by subsection (a).
      A. Obtained the Fiscal Year 2013 first and third quarter self-certification documents
         from the selected first-line managers at each audit site.
         1. Reviewed the self-certification documents submitted by the first-line managers to
            establish whether they were completed timely and signed appropriately.


                                                                                        Page 17
                  Fiscal Year 2014 Statutory Audit of Compliance With Legal
                 Guidelines Restricting the Use of Records of Tax Enforcement
                                            Results


           2. Determined if any ROTERs and/or production goals and quotas were reported by
              the first-line managers on their self-certifications.
       B. Contacted the second-line manager for any first-line manager certifications that could
          not be located.
           1. From the second-line manager, attempted to obtain evidence that the certification
              was filed (i.e., copy of certification).
           2. If the first-line manager’s certification could not be located, discussed the reason it
              could not be located with the first- and second-line manager.
       C. Discussed any self-certification exception cases with the national Section 1204
          Program Coordinator and the appropriate Section 1204 Program Manager (for each
          operating division/function), obtained agreement, and further explored the cause for
          the potential violation.
III.   Determined the effectiveness of the mandatory RRA 98 § 1204 training for managers and
       employees.
       A. Reviewed documentation and determined how and when the Section 1204 training
          was implemented.
       B. Reviewed the content of the mandatory Section 1204 training.
       C. Requested and reviewed documentation to ensure that the Section 1204 training was
          completed by all Section 1204 employees selected for review.
       D. Interviewed a judgmental sample of 20 employees and 40 first- and second-line
          managers to determine whether they understood what ROTERs were, could provide
          an example of a ROTER, and whether the employees understood the retention
          standard.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the guidelines and rules related
to using ROTERs in a way as to improperly influence the handling of taxpayer cases and
retention standard guidance. We evaluated these controls and reviewed judgmental samples of
performance appraisals and signed self-certifications to determine whether the IRS complied
with restrictions on the use of enforcement statistics when evaluating its employees.




                                                                                             Page 18
                    Fiscal Year 2014 Statutory Audit of Compliance With Legal
                   Guidelines Restricting the Use of Records of Tax Enforcement
                                              Results


Data validation methodology
We obtained the Fiscal Year 2013 Fourth Quarter HR Connect list of Section 1204 managers
from the IRS’s Office of the Chief Financial Officer. We used this list to develop our
judgmental sampling plan. To determine the reliability of the data, we reviewed the data for
duplicates and to identify any missing information. We compared the names on the current list
to those on the Section 1204 Manager Listing obtained for last year’s review. For the missing
names, we compared the data to the Discovery Directory3 which contains information about
managers, employees, and locations. We used this information to verify the accuracy of the data
provided by the IRS by matching the information to the Fiscal Year 2012 Fourth Quarter list. As
a result, we expanded the audit plan to test the list further. These tests determined that the data
were sufficiently reliable and could be used to meet the objective of this audit.




3
 The Discovery Directory is a computer system available to IRS personnel that provides information on IRS
employees including their name, job title, job location, and management level.
                                                                                                       Page 19
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


                                                                             Appendix II

                 Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Alan D. Lund, Acting Director
Christina M. Dreyer, Audit Manager
Shalin R. Basnayake, Lead Auditor
Victor A. Taylor, Auditor




                                                                                     Page 20
                Fiscal Year 2014 Statutory Audit of Compliance With Legal
               Guidelines Restricting the Use of Records of Tax Enforcement
                                          Results


                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Financial Officer OS:CFO
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CSO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large Business and International Division SE:LB
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Appeals AP
       National Taxpayer Advocate TA
       Chief, Criminal Investigation SE:CI
       Chief Financial Officer OS:CFO




                                                                                    Page 21
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


                                                                               Appendix IV

    Previous Audit Reports Related to This Statutory
                        Review

TIGTA, Ref. No. 2013-30-073, Fiscal Year 2013 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Aug. 2013).
TIGTA, Ref. No. 2012-30-090, Fiscal Year 2012 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Aug. 2012).
TIGTA, Ref. No. 2011-30-069, Fiscal Year 2011 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Jul. 2011).
TIGTA, Ref. No. 2010-30-076, Fiscal Year 2010 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Jul. 2010).
TIGTA, Ref. No. 2009-30-091, Fiscal Year 2009 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Jun. 2009).
TIGTA, Ref. No. 2008-40-108, Fiscal Year 2008 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Apr. 2008).
TIGTA, Ref. No. 2007-40-055, Fiscal Year 2007 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Mar. 2007).
TIGTA, Ref. No. 2006-40-095, Fiscal Year 2006 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Jun. 2006).
TIGTA, Ref. No. 2005-40-157, Fiscal Year 2005 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Sept. 2005).
TIGTA, Ref. No. 2004-40-066, Fiscal Year 2004 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Mar. 2004).
TIGTA, Ref. No. 2003-40-090, Fiscal Year 2003 Statutory Audit of Compliance With
Legal Guidelines Restricting the Use of Records of Tax Enforcement Results (Mar. 2003).
TIGTA, Ref. No. 2002-40-163, Compliance With Regulations Restricting the Use of
Records of Tax Enforcement Results Shows Improvement (Sept. 2002).
TIGTA, Ref. No. 2001-10-178, Compliance With the Internal Revenue Service
Restructuring and Reform Act of 1998 Section 1204 Has Not Yet Been Achieved
(Sept. 2001).


                                                                                          Page 22
                 Fiscal Year 2014 Statutory Audit of Compliance With Legal
                Guidelines Restricting the Use of Records of Tax Enforcement
                                           Results


TIGTA, Ref. No. 2000-10-118, Further Improvements Are Needed in Processes That
Control and Report Misuse of Enforcement Statistics (Sept. 2000).
TIGTA, Ref. No. 1999-10-073, The Internal Revenue Service Should Continue Its Efforts to
Achieve Full Compliance With Restrictions on the Use of Enforcement Statistics (Sept. 1999).




                                                                                       Page 23
     Fiscal Year 2014 Statutory Audit of Compliance With Legal
    Guidelines Restricting the Use of Records of Tax Enforcement
                               Results


                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 24
 Fiscal Year 2014 Statutory Audit of Compliance With Legal
Guidelines Restricting the Use of Records of Tax Enforcement
                           Results




                                                       Page 25
 Fiscal Year 2014 Statutory Audit of Compliance With Legal
Guidelines Restricting the Use of Records of Tax Enforcement
                           Results




                                                       Page 26
 Fiscal Year 2014 Statutory Audit of Compliance With Legal
Guidelines Restricting the Use of Records of Tax Enforcement
                           Results




                                                       Page 27
 Fiscal Year 2014 Statutory Audit of Compliance With Legal
Guidelines Restricting the Use of Records of Tax Enforcement
                           Results




                                                       Page 28
 Fiscal Year 2014 Statutory Audit of Compliance With Legal
Guidelines Restricting the Use of Records of Tax Enforcement
                           Results




                                                       Page 29
